BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1486
EMPIRE HEALTH FOUNDATION, FOR VALLEY HOSPITAL
MEDICAL CENTER,

Cross-Petitioner,
V.

XAVIER BECERRA,
SECRETARY OF HEALTH AND HUMAN SERVICES,

Cross-Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief for Cross-Petitioner contains 2,861
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on June 7, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102

I Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

AMY TRIPLETT MORGAN

Attorney at Law
otary Public. State at Ohio
Mv Commission Has No Expiration
Date Section f47.03 o 1.C.

